Department   of Health and Human Services   I
        OFFICE OF
   INSPECTORGENERAL




       YOUTH AND ALCOHOL:
   CONTROLLING ALCOHOL ADVERTISING
        THAT APPEALS TO YOUTH




                   Richard P. Kusserow
                  INSPECTOR GENERAL

                       OET-09-91-00654
               EXECUTIVE                         SUMMARY                                     -
PURPOSE
This inspection examined (1) the Federal, State, alcohol industry, and national
television networks’ advertising and marketing regulations and standards, (2) the
monitoring of these regulations and standards, and (3) the application of the
regulations and standards to five current alcohol advertisements.

BACKGROUND

In response to concerns about youth alcohol consumption, Surgeon General Antonia
Novello requested that the Office of Inspector General (OIG) provide information
about alcohol advertising practices and the current system governing them. These
concerns mirror one of Department of Health and Human Services Secretary Louis
Sullivan’s goals, which is to reduce the prevalence of alcohol problems among children
and youth.

In a national survey of junior and senior high school students, the OIG found that
students notice alcohol advertisements and especially like those that spotlight attractive
people, make drinking look like fun, and feature attractive or exotic settings. Other
researchers have found that alcohol advertisements can affect youth attitudes about
alcohol. For example, one study found that students exposed to beer commercials
were more likely to think beer is “cool” or “macho.” Recent public opinion polls show
that the public believes alcohol advertising adversely affects underage youth and
influences them to drink. Because of alcohol’s potential for abuse, both public and
private sectors have placed restrictions on its promotion and sale.

In this study, we interviewed Federal agencies, State Alcoholic Beverage Control
(ABC) agencies, alcohol trade associations and an industry-supported      organization, an
advertising industry organization, and the three largest national television networks.
We asked about their regulations or standards for alcohol advertising and the
enforcement of the regulations and standards. Using a case study approach, we
selected five current print and television advertisements for alcoholic beverages and
asked respondents about (1) the application of their regulations or standards to the
ads, (2) the likelihood that they would take action to change the ads, and (3) their
suggestions for improving the ads. We asked researchers and public interest groups
who study alcohol and advertising for their opinions on current alcohol advertising
practices and their specific comments about the five selected ads.




                                             i
FINDINGS

FEDERAL     REGULATION

t      Federal jurisdiction is fragmented among several agencies.
t      Federal regulations do not specifically prohibit alcohol advertisements that
       appeal to youth.
b      The Bureau of Alcohol, Tobacco and Firearms’ enforcement authority is
       limited.

STATE REGULATION

b      States have difficulty adopting legislation to control alcohol advertising.
t      State regulations are limited in their application.

ALCOHOL     INDUSTRY       CONTROLS

b      Alcohol industry standards do not effectively restrict advertisements    that appeal
       to youth.
b      Alcohol industry standards are unenforceable.

TELEKWON         NETWORK        CONTROLS

b      Network    enforcement    is based on negotiation   with advertisers.

CASE STUDY

b	     Regulations and standards have not deterred advertisers from using
       advertisements that appeal to youth.

ISSUES FOR CONSIDERATION

Based on a review of the findings in this report, the OIG developed a list of issues for
consideration that could help eliminate alcohol advertisements that appeal to youth.




                                               ii
                       TABLEOF                                         CONTENTS

INTRODUCTION..                 ...............................................                                                  1


FINDINGS      ......................................................                                                            6


   FEDERAL        REGULATION                      .......................................                                       6


   STATE REGULATION                        .........................................                                        10 


   ALCOHOL         INDUSTRY               CONTROLS                 ...............................                          13 


   TELEVISION          NETWORK                CONTROLS                  .............................                       16 


   CXSESTUDY             ................................................                                                   18 


ISSUES FOR CONSIDERATION                              ....................................                                 20 


APPENDICES

   Appendix    A: Case Study Advertisements                              and Responses                  ...............   A-l

   Appendix    B: Respondents                  for the Case Study .......................                                 B-l
                             INTRODUCTION
PURPOSE

This inspection examined (1) the Federal, State, alcohol industry, and national
television networks’ advertising and marketing regulations and standards, (2) the
monitoring of these regulations and standards, and (3) the application of the
regulations and standards to five current alcohol advertisements.

BACKGROUND

In response to concerns about youth alcohol consumption, Surgeon General Antonia
Novello requested that the Office of Inspector General (OIG) provide information
about alcohol advertising practices and the current system governing them. These
concerns mirror one of Department of Health and Human Services Secretary Louis
Sullivan’s goals, which is to reduce the prevalence of alcohol problems among children
and youth. This report is one in a series prepared by the OIG related to youth and
alcohol.

In a national survey of junior and senior high school students, the OIG found that
students notice alcohol ads and especially like those that spotlight attractive people,
make drinking look like fun, and feature attractive or exotic settings.* Other
researchers have found that alcohol ads can affect youth attitudes about alcohol. For
example, one study found that students exposed to beer commercials were more likely
to think beer is “cool” or “macho.“2

Alcohol Mark.dng’s    Eflect on Youth

The public has expressed concern about the marketing of alcoholic beverages to youth.
The concern about alcohol marketing (which includes advertising, labeling, and
promotions) focuses on youth-oriented advertising, promotional items, and events
sponsored by the alcohol industry. In a recent public opinion poll conducted on behalf
of the Century Council, an alcohol industry-supported   organization, the Wirthlin
Group found that 73 percent of respondents believe that alcohol advertising is a major
contributor to underage drinking. Additionally, the majority of Americans think the
alcohol industry is “on the wrong track,” one of the reasons being that alcohol “ads




   ‘U.S. Department of Health and Human Services, OIG-OEI, Youth and Alcohol: A National
Survev--Drinking Habits, Access, Attitudes, and Knowledge, OEI-09-9140552, June 1991.

    ‘Lawrence Wallack, Diana Cassady,and Joel Grube, “T.V. Beer Commercials and Children:
Exposure, Attention, Beliefs, and Expectations About Drinking as an Adult,” AAA Foundation for
Traffic Safety, Fall 1990.


                                                 I
target the young.“3 In an opinion poll conducted for the Bureau of Alcohol, Tobacco 

and Firearms (BATF), more than 80 percent of respondents believe that alcohol 

advertising influences youth to drink alcoholic beverages.” 


Because of concerns about youth alcohol use and lack of knowledge about alcohol, 

Congress proposed the Sensible Advertising and Family Education Act of 1990. This 

legislation would not restrict the content of alcohol ads, but it would require a 

balanced message in the ads with health warnings and toll-free numbers for 

information about the risks associated with alcohol. 


Broadcasters acknowledge that advertising can affect youth. According to the 

National Association of Broadcasters (NAB), “the impact of advertising on radio and 

television audiences, particularly kids, cannot be overstated. Clever jingles, flashy 

lights, fast talking, and quick pacing, all contribute to the message of commercials.“’ 

While alcohol ads may not be aimed at the underage youth market, according to NAB, 

“youngsters still absorb the message.” 


Controversy remains, however, over the effects of alcohol advertising. While studies 

have not consistently shown that advertising increases adult alcohol consumption, some 

researchers believe that exposure to alcohol advertising affects youth’s attitudes about 

alcohol’s role in society. Researchers have not reached consensus on the 

interpretations of these findings. 


Concern for Certain Advertking Messages 


Concern over alcohol      advertising arises because much alcohol advertising goes beyond 

describing the specific    qualities of the beverage to creating a glamorous, pleasurable 

image that may attract      youth. Research indicates that youth are attracted to certain 

types of alcohol ads.6    Alcohol advertising critics oppose ads that appeal to youth by 





    3The Wirthlin Group, ”A National Benchmark Survey of Public Attitudes Toward Beverage
Alcohol,” prepared for the Cenrury Council, Vol. 1, September1990,p. 13.

    40pinion Research Corporation, “Final Report of Findings of Research Study of the Public
Opinion Concerning Warning Labels on Containers of Alcoholic Beverages,” conducted for BATF,
Vol. 1, December 1988, p. 14.

   ‘NAB, “Kidsummit Against Drugs,” November 18, 1987.

    6P.P. Aitken, et al., “Television Advertisements for Alcoholic Drinks j& Reinforce Under-age
Drinking,” British Journal of Addiction, Vol. 83, 1958, pp. 1399-1419; Charles Atkin and Martin Block,
“Content and Effects of Alcohol Advertising,” prepared for BATF, Pub. No. PB82-123142, Springfield,
Va: National Technical Information Sexvice, 1981; Lisa R. Lieberman and Mario A Orlandi, “Alcohol
Advertising and Adolescent Drinking,” Alcohol Health and Research World, Vol. 12, No. 1, 1987,
pp. 32-33; Kimberly Neuendorf, “Alcohol Advertising and Media Portrayals,” Journal of Studies on
Alcohol, Vol. 45, 1984, pp. 93-100.


                                                  2
(1) making lifestyle appeals, (2) making sexual appeals, (3) using sports figures, and
(4) showing risky activities.

        Lifestyle appeak   The aim of a lifestyle ad is to get consumers        to identify with
        the image created. According to one report, young people are            constantly
        seeking role models and attractive lifestyles to emulate.’ These         ads associate
        wealth, success, social approval, and leisurely life with drinking.       The ads are
        emotional rather than factual. An example is an ad that shows           beautiful men
        and women on a tropical island with no cares in the world.

        S-Z      appeals. These ads use sexuality as a direct appeal. Ads feature
        attractive models wearing lingerie or couples in an embrace.’ The ads usually
        make little or no mention of the products’ contents or taste. According to the
        Center for Science in the Public Interest (CSPI), direct sexual appeals in ads
        are more favorably received by young people than by adults.’ The CSPI
        claims that advertising with sexual appeals plays on the feelings of sexual
        inadequacy of young people.

       Sportsfigz~c~ Many alcohol advertisers concentrate ads in sports broadcasts,
       sponsor athletic events, own or sponsor professional teams, and use athletes in
       commercials. Sports figures are common youth heroes. Youth receive a
       positive message about alcohol use through sports figure promotion of alcohol
       products.”   Examples of sports themes are ads featuring former professional
       athletes and ads showing friends getting together for weekend sports such as
       softball.

       Risky activities. These ads may show people shooting rapids, climbing
       mountains, boating, skiing, or driving race cars. Many ads associate alcohol
       with the exciting activity by interspersing action scenes and shots of the prcduct
       or by showing alcohol as a reward for the activity. Studies by Atkin and Block
       find that people interpret more than an association between the activity and the
       product; many believe that the actors have consumed the product, or it is
       acceptable for people to drink and do the activity.”



     7Michael Jacobson, Robert Atkins, and George Hacker, The Booze Merchants, Center for Science
in the Public Interest, 1983, p. 104.

    ‘George A Hacker, Ronald Collins, and Michael Jacobson, Marketing Booze to Blacks, Center for
Science in the Public Interest, 1987, pp. 28-29.

   ‘CSPI, “Omnibus Petition for Regulation of Unfair and Deceptive Alcoholic Beverage Advertising
and Marketing Practices,” Submitted to the FTC, 1985, p. 11.

   ‘OLieberman and Orlandi, p. 32.

   “Atkin   and Block, pp. 332-334.
Controls on Alcohol Advertising

Because of alcohol’s potential for abuse, both public and private sectors have placed
restrictions on its promotion and sale. As part of these efforts, some organizations 

have placed controls on alcohol advertising in an attempt to assure that alcohol ads do 

not target young people. Restrictions on alcohol advertising come primarily from 

(1) Federal regulations, (2) State regulations, (3) alcohol industry organization 

standards, and/or (4) national television network standards.” 


At the Federal level, the Federal Alcohol Administration (FAA) Act gives primary 

responsibility to the Department of Treasury’s BATF. The BATF regulates the 

permits, labels, and advertising of wine, distilled spirits, and, to some extent, malt 

beverages. The Food and Drug Administration         (FDA), in the Department of Health 

and Human Services, has authority over labeling of wine beverages containing less 

than 7 percent alcohol and can affect the content of some point-of-sale advertising. 

The Federal Trade Commission (FTC) has the more general authority to regulate 

deceptive or unfair commercial practices. This authority extends to alcohol advertising 

and marketing activities, such as student spring break promotions. 


The Twenty-First Amendment to the U.S. Constitution repealed Prohibition and gave 

States the responsibility for regulating alcoholic beverages. As a result, some States 

have regulations that permit their Alcoholic Beverage Control (ABC) agencies to 

monitor and control alcohol advertising. 


The Beer Institute, the Wine Institute, and the Distilled Spirits Council of the United 

States (DISCUS) have developed separate advertising codes and standards for their 

members. An industry-supported, non-profit organization, the Century Council, has 

developed advertising standards intended to apply to all three sectors of the alcohol 

industry (beer, wine, and distilled spirits) effective October 1, 1991. 


After the dissolution of the NAB Television Code in 1982, the development and 

administration of advertising standards were left to the networks and stations-l3 

Three major national television networks (ABC, NBC, and CBS) adopted standards 

for alcohol ads, which they contend uphold their commitment to viewers for quality 

programming. 


More information about the Federal, State, alcohol industry organization, and 

television network roles is contained in the Findings section of this report. 



    ‘2”Alcohol industry organizations” and “industry organizations” refer to alcohol trade associations
(the Beer Institute, the Wine Institute, and the Distilled Spirits Council of the United States) and the
Century Council.

   13George Gerbner, ”Stories that Hurt: Tobacco, Alcohol, and Other Drugs in the Mass Media,”
Youth and Drues: Societv’s Mixed Messages,Office of Substance Abuse Prevention Monograph-6,
1990, p. 65.
METHODOLOGY

To obtain an understanding of the government regulations and voluntary standards
that control alcohol advertising, we conducted structured in-person and telephone
interviews with BATF, FTC, FDA, State ABC agencies, alcohol trade associations, the
Century Council, the American Association of Advertising Agencies, and three
national television networks (ABC, NBC, and CBS). We selected the three television
networks because they have national advertising standards. During the interviews, we
asked respondents about (1) the organization’s regulations or standards for alcohol
advertising, (2) the effectiveness of these criteria, and (3) suggestions for improving
the system of control over alcohol advertising. We also contacted researchers and
public interest groups in the fields of alcohol abuse and advertising in order to discern
their opinions about alcohol advertising practices.”

We reviewed Federal laws, regulations, and rulings to determine the extent of Federal
authority and jurisdiction. We researched State liquor laws in the Commerce
Clearinghouse Liquor Control Law Reporter to determine the applicable State laws
that regulate alcoholic beverage advertising. We also reviewed alcohol and media
organization advertising standards to compare the industries’ codes and standards.

To understand how the respondents’ regulations or standards apply to specific
advertising practices, we selected five current television and print ads for alcohol. We
asked that respondents respond as they would to complaints about each of the ads.
Because we wanted to focus on how regulations and standards apply to alcohol
advertising practices and techniques, rather than ads for specific products, respondents
were asked to respond to all the ads, even those for which they do not have
responsibility. We specifically stated, “If the ad is for a product the [organization]
does not represent, please review the ad as if it were for [beer/wine/wine
coolers/distilled spirits].” We asked respondents about: (1) the application of their
regulations or standards to the five alcohol ads, (2) the likelihood that they would take
any action to change these ads, and (3) suggestions for changing or improving the ads.
We asked interest groups if any aspects of the ads might be particularly attractive or
misleading to youth. Results of the case study incorporate both comments from
interviews and written responses. Appendix B lists the individuals and organizations
contacted for the case study, and Appendix A summarizes their responses.




    “‘The term “interest groups” will be used throughout the report to refer to researchers and public
interest groups in the fields of alcohol abuse and advertising.
                  FEDERALREGULATION
FEDERAL       JURISDICTION         IS FRAGMENTED             AMONG        SEVERAL          AGENCIES

Several Federal agencies have responsibility for regulating alcoholic beverages. The
BATF regulates the permits, labels, and advertising of wine, distilled spirits, and, to
some extent, malt beverages. The FDA has authority over labeling of wine beverages
containing less than 7 percent alcohol. The FIG prohibits deceptive and unfair
advertising and marketing of all alcoholic beverages. It has concurrent jurisdiction
with BATF, but FTC generally defers to BATF’s decisions. The following chart
outlines how responsibility for alcoholic beverages is divided among the Federal
agencies.

              THREE      FEDERAL      AGENCIES        SHARE         RESPONSIBILITY

              ADVERTISING       LABELING        ‘ROMOTION:      ;




                                                                          00        MALT   BEVERAGES


                                                                                    WINE 7% AND OVER
                                                                           !z
                                                                                WINE BEVERAGES
                                                                                UNDER 7%
                                                                           c

                                                                                    DISTILLED   SPIRITS


       FTC*
                     0



  *	   The FTC has authority      over all alcohol marketing practices (advertising,
       labeling, and promotions),   but usually defers to agencies that have more
       specific jurisdiction (see discussion on p. 7).
  1    For malt beverages,   BATF’s authority   is limited   in certain   States.
  2 	 The BATF requires the Surgeon General’s health warning on all alcoholic
      beverages and the alcoholic content on all wines containing over 0.5 percent
      alcohol.

While BATF has the specific responsibility for alcoholic beverage permits, labels, and
advertising, it does not have complete control over all types of alcoholic beverages.
For example, Federal law does not require malt beverage producers to hold a permit
although permits are required for wine and distilled spirits producers and importers.
Federal law also limits BATF’s authority over malt beverage labeling and advertising



                                                 6

 in States that do not have enabling legislation (see detailed discussion of BATF’s 

jurisdiction on p. S). Also, wine coolers do not fall entirely under BATF’s jurisdiction 

because the FAA Act definition of wine does not include beverages, such as wine 

coolers, containing less than 7 percent alcohol by volume. The BATF’s jurisdiction 

over wine coolers is limited to requiring that the Surgeon General’s health warning 

and the alcoholic content appear on the labels. 


Since wine coolers do not meet the definition of wine, they are treated as a “food” and 

come under FDA’s jurisdiction. The FDA regulates the labeling, but not the 

advertising, of wine coolers. Although the FDA has no authority over advertising 

practices per se, it can affect the content of point-of-sale advertising, such as posters 

that accompany the product or advertising tags placed around the necks of bottles. 


Congress granted FTC general authority to prevent deceptive and unfair business 

practices, including marketing and advertising. While FTC has jurisdiction over the 

advertising, labeling, and promotion of all alcoholic beverages, it will defer in 

individual cases if BATF or FDA has specific regulations or makes specific decisions 

regarding a product. For example, if BATF approves a product label and decides it is 

not deceptive, FTC generally defers to BATF’s decision. Because BATF and FDA 

regulations do not address wine cooler advertising, FTC has sole jurisdiction. 


One alcoholic beverage illustrates the confusion among the Federal jurisdictions. A 

drink called “Passion” (available in Purple, Pink, Peach, and Tropical flavors) contains 

grain alcohol in some areas of the country and substandard wine in others.15 The 

BATF has jurisdiction over the grain alcohol version of Passion. The FDA, on the 

other hand, has jurisdiction over the labeling of the substandard wine mixture, which 

contains less than 7 percent alcohol. The FTC can consider questions that neither 

BATF nor FDA address. This could include such issues as whether the promotion of 

a plastic squeeze-bottle that accompanies 2-liter bottles of Passion is an unfair or 

deceptive practice. 


FEDERAL   REGULATIONS               DO NOT SPECIFICALLY               PROHIBIT       ALCOHOL 

ADVERTISEMENTS     THAT             APPEAL TO YOUTH 


The primary goal of the BATF and FTC regulations regarding advertising is to ensure 

that consumers receive truthful and accurate information about products. The FDA 

does not have regulations that specifically address alcoholic beverages or advertising 

practices. 


The BATF regulations prohibit advertising claims that are deceptive, misleading, 

disparaging of a competitor’s product, obscene, or indecent. They do not specifically 

address alcohol advertising and youth. Although one BATF ruling prohibits showing a 



    “The BATF defines substandard wine in 27 C.F.R. 4.21(h)(2) as wine that fails to have the
composition, color, and clean vinous taste and aroma of normal wines, has an excessvolatile acidity, or
has excessadded water or sugar.


                                                   7
prominent athlete consuming a malt beverage, this ruling does not concern the issue of
an athlete’s appeal to youth. Instead, BATF is simply concerned with misleading
consumers about alcohol’s effect on athletic ability. The BATF regulations also do not
address targeting youth or promoting alcohol at events.

The FTC prohibits commercial practices that are deceptive or unfair. An example of
a practice that would be unfair to underage youth is an offer to send away for a
6-pack of beer without having to prove age. The FIG also addresses marketing and
advertising that affect health and safety. Recently, FTC (in conjunction with BATF
and FDA) investigated the Canandaigua Wine Company that produces Cisco, a wine
with 20 percent alcohol. The marketing practices for Cisco were in question because
several young people were hospitalized for overdoses of Cisco. In this case, the
promotion and packaging of Cisco misled consumers to believe it was a wine cooler.
Generally, the FTC is not concerned with alcohol ads that use emotional appeals or
lifestyle themes because the Commission’s jurisdiction is limited to deception and
unfairness and does not extend to issues of taste and public mores.

THE BATF’S ENFORCEMENT            AUTHORITY       IS LIlHITED

The BATF has faced several barriers in enforcing its regulations. Most importantly,
the FAA Act limits BATF’s authority over malt beverage marketing practices,
including labeling and advertising. Because the FAA Act does not require basic
permits for brewers, BATF lacks an important enforcement tool.

The Penultimate Paragraph of the FAA Acti limits BATF’s jurisdiction over malt
beverages to States that have enacted legislation similar to BATF’s. Without State
regulations that mirror BATF’s regulations, BATF has no ability to regulate malt
beverage labeling or advertising. The 25 States that have adopted the FAA Act pose
no problems for BATF. Also, some States have adopted parts of the FAA Act. On
the other hand, BATF’s capability is extremely limited in States that have no laws
concerning alcohol advertising.

Because Federal law does not require malt beverage producers, i.e. brewers, to hold
basic permits, BATF’s ability to achieve compliance from brewers is compromised.
Brewers hold no permits for BATF to suspend or revoke in case of violations, which
means that BATF must resort to criminal prosecution. According to a BATF official,
“The brewers know that [BATF] can only take limited action against them.”

The BATF is seeking ways to expedite enforcement. An enforcement action against
the Coors Light slogan -- “Won’t Slow You Down” -- continued for 2 years before
BATF sought alternative methods. The BATF obtained permission from the
Department of Justice (DOJ) to seek an injunction through the civil courts. The
BATF then threatened Coors with civil court action. Within a matter of weeks, Coors



   I627 U.S.C. 205.


                                           8
and BATF agreed to a settlement. The BATF plans to use similar civil proceedings in
several cases of malt liquor ads that refer to the strength of the product.



  ‘Ihe BATF has limited control of the nation’s “No. 1 strongest malt” 


  If you want to see the rap singer Ice Cube, you can go to a movie about 

  Los Angeles gangs, Bon N the Hood, or you can simply stay tuned and watch 

  television ads for St. Ides malt liquor. The St. Ides ads contain overt 

  references to street gangs, sexual conquest, and the malt liquor’s strength. 

  Listen closely and you will hear: in a black can, why don’t ya grab a &pack and 

  get your girl in the mood quicker and get your jimmy thicker with St. Ides malt 

  liquor. 


  While Federal alcohol advertising regulations forbid practices in the St. Ides ad, 

  such as promoting its alcoholic strength and disparaging a competitor’s product, 

  BATF’s authority over malt beverages is limited in certain States. Because 

  California, for example, has no law that prohibits promoting alcoholic strength, 

  BATF cannot act against the St. Ides campaign in that State. A BATF official 

  expressed frustration that “when a State like California does not have enabling 

  legislation, 10% of the American population is not being protected.” The 

  St. Ides ads are currently under investigation by BATF in other States. . 





                                            9

                      STATE              REGIJLATION
STATES HAVE DIFFICULTY               ADOPTING          LEGISLATION     TO CONTROL
ALCOHOL  ADVERTISING

Each State has the authority to regulate alcoholic beverage advertising. Twenty-nine
out of the 50 State and the District of Columbia ABC administrators believe that
restricting alcohol ads can be effective in reducing advertising’s youth appeal.
However, only 17 States have regulations that prohibit ads with youth appeal.

Pressures on State legislators from vested interests can be a barrier to regulating
alcohol advertising. According to one State official, “Passing these regulations
[prohibiting alcohol advertising and promotions on college campuses] was a bloody
battle.” Another State official found strong lobbyists opposing legislation that would
have prohibited alcohol ads on television. According to the official, representatives
from the alcohol industry threatened to discontinue the television broadcast of all
sports programming, including the Super Bowl. In the face of this pressure, the
legislation did not pass.

Disagreements within a State also can inhibit an ABC’s attempt to control advertising.
For example, the Washington State Liquor Control Board has been very active in
attempts to restrict alcohol advertising. Early this year, however, a proposal by the
Washington State Medical Association to restrict ads that imply “liquor enhances. . .
professional or social achievement of any kind” failed to gain the support of the
Board.17 Critics of this legislation claimed there was insufficient evidence of the
effect of alcohol advertising on consumption. Additionally, the board members
decided that the State already had taken enough precautions to prevent alcohol ads
from appealing to youth.

STATE REGULATIONS             ARE LIMITED        IN THEIR     APPLICATION

Problems with the wording of regulations and the nature of short-term, national ad
campaigns diminish the effectiveness of State controls. Narrow definitions limit the
application of many State regulations that attempt to prevent the appeal of alcohol
advertising to youth. For example, Utah prohibits ads or promotional schemes that
are “primarily or especially appealing” to underage youth. However, an ad is not in
violation of the law if it appeals to 25year-old adults just as much as it appeals to
13-year-old adolescents. This means alcohol ads could contain themes that appeal to
youth (such as cartoons or youth-oriented music) as long as at least some adults also
find the ad appealing.



    17JayMatthews, ”Washington State Rejects Ban on Alcohol Advertising,” Washington Post, January
31. 1991.



                                                10 

In other States, the regulations are so unclear that it is difficult to agree on their
interpretation.  Virginia’s provision reads, “No advertising shall contain any statement,
symbol, depiction or reference that would tend to induce minors to drink.” Little
consensus exists on which ads violate this regulation. According to a State ABC
official, “We have various regulations on advertising, and for the most part, they are
completely ineffective because of difficulties with definitions.”

Logistics can cause problems with enforcement, even if there is a clear violation of
State law. The short duration of some advertising campaigns, combined with the time
it takes for the State ABC to take action, can mean an ad will run despite the fact it is
in violation. In Texas, the Anheuser-Busch “Budman” campaign violated State law
that bars the use of contests or sweepstakes to induce purchase of alcoholic products.
When State officials realized Anheuser-Busch had continued the “Budman” campaign
in spite of the law, the ABC issued a cease-and-desist order and began steps to
suspend Anheuser-Busch’s license to sell beer within the State. However, because the
campaign was scheduled to end on Labor Day, “the matter will probably be moot
before the [ABC] can hold a hearing.“”      The campaign has now ended and
Anheuser-Busch still holds its license to sell beer in Texas. Additionally, the wide
scope of national campaigns often limits a State’s ability to control advertising. While
States can regulate the content of alcohol advertising originating within their
boundaries, they cannot restrict advertising originating in other States.




    18Marj Charlier, “Anheuser’s Budman Promotion Creates Big Brouhaha in Texas,” Wall Street
Journal, August 19, 1991, Bl.


                                                11
In some cases, a State can be more timely and eflective than the BATF

The BATF and the New York Attorney General have had varied success in
seeking discontinuance of the Coors Light “Won’t Slow You Down”
campaign. While BATF spent 2 years corresponding with Coors and had to
obtain DOJ’s permission to seek an injunction, the State Attorney General
filed a suit and within a year was able to limit Coors’ future advertising
practices.

In 1983, Coors developed the slogans “Won’t Slow You Down” and “No
Slowin’ Down” as part of an ad campaign showing active men and women
involved in several types of athletic activities. This campaign suggests that
Coors Light will not impede a consumer’s physical abilities, although alcohol
is a depressant on the central nervous system.

The New York Attorney General’s Bureau of Consumer Frauds and
Protection office issued an Assurance of Discontinuance to Coors for the
“Won’t Slow You Down” campaign. Coors withdrew its ads based on the
threat of litigation, since it appeared that the ads violated the false and
misleading provision in the State General Business Law. Coors agreed to
phase out the slogan by October 1, 1991, and not to use the Silver Bullet jet,
race car, or any ads portraying these items or any sports equipment in the
State of New York.

New York State’s action against Coors was independent of BATF’s
involvement. Greater coordination between BATF and the States’ Attorneys
General could improve effectiveness in the future.




                                      12 

      ALCOHOLINDUSTRYCONTROLS
ALCOHOL   INDUSTRY   STANDARDS                                                             DO NOT EFFECIWELY                                   REXSTRICT
ADVERTISEMENTS     THAT APPEAL                                                            TO YOUTH

Alcohol trade associations (the Beer Institute, the Wine Institute, and DISCUS) have
developed separate alcohol advertising codes and standards for their members. The
Century Council provides alcohol advertising standards for its members in all three
sectors of the alcohol industry (beer, wine, and distilled spirits). Each of the
advertising codes and standards has youth-related provisions.” The following table
compares each organization’s provisions related to youth appeal:

                                               INDUSTRY                  ADVERTISING                   GUIDELINES: 

                                           A COMPARISON                    OF YOUTH-RELATED                        PROVISIONS 


                                                                                             BEER                                     WINE        CENTURY
     ALCOHOL       ADVERTISEMENTS             SHOULD        NOT                                                     DISCUS
                                                                                          INSTITUTE                                INSTITUIE      COUNCIL
     BE DIRECTED      TO APPEAL         TO YOUM           BY:
         HAVING     A PARTICULAR           YOUfH      APPEAL                                                            X               X             X

         ENCOURAGING           UNDERAGE            DRIN’KING                                    X

         SHOWlNG      UNDERAGE          MODELS                                                                          X               X             X

         SHOWING      UNDERAGE          DRINKING                                                X

         SUGGESTING         VIOLATION         Of   DRINKING       AGE LAWS                      X                                                     X


     ALCOHOL      ADS SHOULD    NOT           USE
      YOlJTH-ORIENlED     SUEtJECT            MATTER.       INCLUDING:
         MUSIC                                                                                                                          X

         LANGUAGE                                                                                                                       X             X

         GESTURES                                                                                                                       X             X

         CARTOON       CHARACTERS                                                                                                       X             X

         OBJECTS.      e.g. TOYS                                                                                        X

         COMPARISON         WITH      YOUTH        PRODUCTS,       e.g. CANDY                                                           X


     ADS SHOULD   NOT USE PERSONALmES 

     TO APPEAL  TO YOUTH. SUCH AS:                                                    I                      I                I





         AT YOUTH-ORIENTED              EVENTS.       e.g. CONCERTS                                                                                   X

         NEAR     SCHOOLS      OR IN COLLEGE             MEDIA                                                                                        X

         ON YOUTH      TEUS.       e.g. TOYS,       GAMES                                                                                             X



         a       DENOTES     -l-HAT   ME      ORGANIZATION’S             GUIDELINES       ADDRESS     THIS       lTEM




   “Beer Institute, Brewine Industrv Advertising Guidelines, 1984;Wine Institute, Code of
Advertising Standards, 1987; DISCUS, Code of Good Practice, 1987; Century Council, The Centurv
Council Code of Responsible Marketine and Advertising Practices, draft, 1991.


                                                                                           13
While the industry advertising standards purport to guide alcohol advertisers towards
responsible behavior, they fail to prevent advertising considered to have youth appeal.
Several factors limit the alcohol industry standards’ effectiveness in preventing ads that
appeal to youth. They include:

       (1)     vague standards that do not specify unacceptable   practices,

       (2) 	   narrow standards that do not address many ads that may mislead or
               appeal to youth,

       (3) inconsistency in the definitions of youth appeal, and
       (4) 	 the failure of most industry organizations to address   marketing and
               promotional   activities.

Several advertising standards are worded vaguely. Because the standards do not
specifically state what practices are unacceptable, advertisers are left with little
guidance. The DISCUS Code of Good Practice, for example, covers youth issues with
the broad statement that ads should not be “in any manner directed or primarily
intended to appeal to persons below the legal drinking age.” Although DISCUS
interprets the standard to discourage promotional activities on college campuses, this
is not evident from reading its code. Also, the terms “directed” or “primarily intended
to appeal” are difficult to define.

Although some standards spell out precisely which practices are unacceptable, they are
extremely narrow in scope. For example, one of the Century Council’s standards
discourages advertising and marketing from making claims that “persons cannot solve
social, physical, or personal problems without consuming the product.” This means
ads that state alcohol is essential to solving problems are not allowed. However, ads
that indicate alcohol can help a person solve problems, such as the Bass Ale campaign
that “it helps you get to the bottom of things,” are not prohibited by the standards.
Furthermore, the Century Council stipulates that advertising does not violate its
standards if it merely portrays attractive, affluent people who appear to be having fun.
These stipulations narrow the scope of the Century Council’s effectiveness in limiting
ads that appeal to youth.

Alcohol industry standards are inconsistent concerning which practices have youth
appeal. The Wine Institute and Century Council recognize that a broader scope of
advertising practices appeal to youth. For example, while the Wine Institute and
Century Council standards discourage the use of cartoon characters, the Beer Institute
and DISCUS standards do not. The Beer Institute, in fact, likens its use of cartoons
to the use of cartoons in ads for a variety of adult products, including life insurance.
Similarly, the Wine Institute and Century Council discourage any use of amateur or
professional sports celebrities because of their potential appeal to youth, while the
DISCUS and Beer Institute standards have no provisions that restrict the use of sports
figures.


                                            14
Most industry organization standards do not address promotional activities. The 

Century Council is the only industry organization that discourages promotional 

practices that primarily appeal to youth. Besides restricting alcohol companies from 

promotions at youth-oriented events, their standards also restrict product names and 

logos from appearing on toys, game equipment, or child-sized clothing. Other industry 

organizations do not address these practices specifically. Notably, the Beer Institute 

does not prevent promotional items such as Spuds MacKenzie stuffed animals or 

model race cars carrying the Miller logo. 


ALCOHOL       INDUSTRY      STANDARDS        ARE UNENFORCEABLE 


Voluntary provisions and persuasion are the extent of the industry organizations’ 

enforcement of their advertising standards. Once an advertising practice has been 

brought to the attention of the Beer or Wine Institutes, resolution of the issue is 

limited to nonthreatening persuasion. Members have discretion over how to respond 

to concerns about irresponsible advertising. The DISCUS Code Review Board 

clarifies discrepancies over interpretation of the standards and informs the advertiser, 

leaving any action to the discretion of the advertiser. The Beer Institute simply refers 

concerns “to the party being complained about to see if they want to do anything.” In 

response to our questions about several beer ads, the Beer Institute refused to get 

involved and referred our questions to the advertisers, most of whom did not respond. 

The Century Council plans to have members perform self-evaluations of their 

advertising practices vis-a-vis the standards. A Century Council representative 

explained that while the chairman can persuade members to change their advertising, 

the Council has “gone as far as it can according to legal counsel.” 


Alcohol industry organizations believe they cannot penalize members for advertising 

code or standards violations, because of concerns about antitrust laws. In a 1978 letter 

to the Wine Institute, FTC stated that because the Wine Institute’s standards are 

strictly voluntary they present no antitrust concern. According to FTC, antitrust laws 

allow some voluntary restrictions of advertising themes considered socially undesirable, 

unless an undue restraint of trade results from the restriction. The Wine Institute is 

concerned that its standards, when enforced, would restrict competition.       This concern 

was reinforced in 1982, when DOJ determined that the NAB Television Code 

appeared to limit advertising artificially, thereby restricting trade and violating antitrust 

laws. 





                                              15 

   TELEVISION                        NETWORK                     CONTROLS
NETWORK ENFORCEMENT                 IS BASED        ON NEGOTIATION       WITH
ADVERTISERS

While networks maintain advertising standards to ensure quality programming for
viewers, they also must attract advertising revenues to stay in business. Television
networks rely solely on advertising revenues, and a great proportion -- approximately
$700 million in 1989 -- comes from beer and wine advertisers.20 Without alcohol
advertising, many networks would undergo financial problems and be forced to curtail
programming, especially sports programs.21 In order to walk the thin line between
maintaining responsible advertising and revenues, the networks:

       (1)     negotiate with advertisers concerning the content of advertising;

       (2) 	   allow their standards to be interpreted by local station managers,
               enabling them to attract more local advertising revenue; and

       (3)     are gradually loosening their interpretation    of responsible advertising.

The networks negotiate with advertisers concerning the interpretation of their 

standards. Negotiation is fostered because advertisers and networks need each other 

for exposure and revenues, respectively. At least half of the ads reviewed by networks 

require further documentation or revision. CBS has found that ad agencies are very 

cooperative and responsive to suggestions for revisions. In one case, they asked an 

advertiser to move the child in an alcohol ad into the background to make any 

reference to children incidental. At times in the negotiation process, the advertisers 

convince the networks that the standards do not warrant changes in their ads. Overall, 

the networks reject only a very small percentage of alcohol ads. Even in the 

complaint process, the networks work closely with the advertisers to reach a 

compromise. The network wants to sustain good relations with its viewers and 

advertisers. It is in the best interests of the network to act as a mediator for 

resolution. 


Although networks have national standards to control the appeal of alcohol advertising 

to youth, these standards do not apply to local stations. Network standards serve as 

models for the network-owned stations, affiliates, and independent stations. These 

stations interpret the standards in light of local interests and the need to attract local 

advertisers. 





   20Communicationwith NAB, January 8, 1991.

   “Statement of Edward 0. Fritts of NAB, before the Senate Subcommittee on Alcoholism and
Drug Abuse, Committee on Labor and Human Resources, February 7, 1985.


                                               16
The current trend has been to loosen network standards even further. According to
an article in the Wall Street Journal, one network’s standards are weakening in
response to advertiser pressure.22 The ABC network, which has lost advertising
revenue due to the recession and to competition from independent and cable
networks, has decided to relax its longstanding standards in order to attract more
advertisers. So far, these revisions to the alcohol advertising standards have allowed
advertisers to suggest off-screen drinking. According to the Wall Street Journal, it
appears likely that the other large networks will follow ABC’s lead to loosen
standards.




   “2JoanneLipman, “ABC to Relax Longstanding Guidelines for Ad Content,” Wall Street Journal,
September 5, 1991, Bl.


                                               17
                               CASE        STUDY 

REGULATIONS  AND STANDARDS               HAVE NOT DETERRED   ADVERTISERS
FROM USING ADVERTISEMENTS               THAT APPEAL TO YOUTH

The current system fails to address the public’s concern that alcohol ads appeal to
youth. After viewing a selection of five current ads for alcoholic beverages, interest
groups cited several techniques and themes that appeal to youth. For the most part,
however, government, alcohol industry, and network respondents made no reference
to youth appeal in the ads. Their regulations and standards do not prevent these
types of ads from reaching the public.

Interest groups took issue with the ads because they believe the ads use

       b      lifestyle appeals,
       b      sex,
       b      fantasy,
       b      fast cars,
       t      cartoons,
       b      fast music, and
       b      current slang

which all appeal to youth. In most cases, interest groups believed revisions would not 

improve the ads. Whether or not the ads intentionally appeal to youth, these 

respondents suggest that these elements can be eliminated by allowing only 

“tombstone advertising.” “Tombstone advertising” restricts ads to depicting the 

product, its name, the price, and where it is available. 


Federal agencies did not comment on any issues of youth appeal in the five ads. The 

BATF cited regulations that require the depiction of an approved label and mandate 

the disclosure of the responsible advertiser and class of the product. The BATF 

refused to comment on the St. Ides ad because comments might interfere with a 

pending investigation. The FTC officials said they were unable to comment on the 

specific ads because of their law enforcement authorities and ongoing investigations. 


Representatives of the alcohol industry did not find that any of the ads appealed to 

youth or violated advertising standards. Most gave no response. The Beer Institute 

refused to respond to hypothetical complaints about ads. All of the alcohol industry 

organizations refused to comment on the ads for products not advertised by their 

members, in spite of our request that they respond as if the ads were for members’ 

products. 


The networks raised concerns about the taste, youth appeal, and hazardous activities 

in the ads, but did not say they would reject them. The networks did not reply 

formally to the survey because of alleged concerns over client confidentiality. 




                                           18 

Appendix A contains a description of the five ads and the actual responses from
interest groups, BATF, the alcohol industry organizations, and the national networks.
Appendix B lists the respondents for this case study.




                                          19 

         ISSUES             FOR         CONSIDERATION
Based on a review of the findings in this report, the Office of Inspector General has
identified some issues for consideration that could help eliminate alcohol
advertisements that appeal to youth. While this list is not comprehensive, it should
provide a basis for discussion of alcohol advertising controls.


Federal Regulation

1. 	 Should the Federal Alcohol Administration (FAA) Act be amended to give BATF
     more authority over malt beverage producers ? For example, the FAA Act could
     be amended to require that brewers hold basic permits, or BATF’s jurisdiction
     could be extended to all States without requiring that States have enabling
     legislation.

2. 	 Should the FAA Act be amended to give BATF regulatory authority over wine
     beverages containing less than 7 percent alcohol by volume?

3. 	 Should the FDA’s ingredient labeling requirement    be extended to apply to all
     alcoholic beverages?

4. 	 Should BATF adopt regulations that forbid alcohol advertising that appeals to
     youth including specific practices, such as the use of cartoons?

5. 	 Should BATF adopt regulations that restrict certain types of alcohol promotional
     activities?

6. 	 Should BATF consider restricting alcohol advertising to “tombstone advertising”
     (depicting only the product, its name, its price, and where it is available) to
     prevent alcohol ads that appeal to youth?

7. 	 Should the Federal government require that alcohol advertisers fund counter-
     advertising to promote public awareness of the dangers of alcohol?

8. 	 Can the Federal government ensure that enforcement of industry codes and
     standards does not violate First Amendment rights and antitrust laws?

9. 	 Can the Federal government work in cooperation with States, the alcohol industry,
     the advertising industry, national television networks, and other media to eliminate
     alcohol ads that use lifestyle appeals, sexual appeals, sports figures, and risky
     activities?




                                           20 

 State Remlation

 1. 	 Should the 25 States and the District of Columbia that have not yet adopted the
      FAA Act (or portions thereof) do so in order to increase BATF’s ability to
      enforce Federal malt beverage regulations?

2. 	 How can States use their authority to regulate intra-State     advertising in a more
     timely and effective manner?

3. 	 What special measures must States take to regulate national broadcast advertising
     campaigns aired by stations in their States?

4. 	 Is there any way that States can control advertising broadcast by stations outside
     the State?

5. 	 Should States adopt clear regulations that forbid alcohol advertising that appeals
     to youth including specific practices, such as the use of cartoons?

6. 	 Should States consider restricting alcohol advertising to “tombstone advertising”
     (depicting only the product, its name, its price, and where it is available) to
     prevent alcohol ads that appeal to youth?


Alcohol Industry

1.   Should alcohol industry codes and standards be more specific about what is
     unacceptable advertising?

2.   How can the alcohol industry avoid narrow interpretations      of its standards?

3.   Can and should the alcohol industry develop one uniform advertising code for all
     alcoholic beverages?

4.   Should alcohol industry standards be expanded to include promotional         activities?

5.   What else can the alcohol industry do to improve standards that restrict alcohol
     advertising’s appeal to youth?

6.   Should the alcohol industry be responsible for self-policing   its advertising
     practices?

7.   How can the alcohol industry be held accountable to the public for its advertising
     practices?

8.   How can the alcohol industry make its standards enforceable?



                                             21 

9. 	 Should advertising agencies be held accountable to their trade associations for
     advertising practices?


Networks

1. 	 Should network-owned stations, independents, affiliates, and cable stations have
     consistent standards for all alcohol ads on television?

2. 	 Should the television networks consider strengthening   their standards restricting
     alcohol advertising that appeals to youth?

3. 	 Should television networks consider restricting alcohol advertising to “tombstone
     advertising” (depicting only the product, its name, its price, and where it is
     available) to prevent alcohol ads that appeal to youth?

4.   Should networks be responsible for enforcing advertising standards?

5. 	 Can the television networks work in cooperation with the Federal government,
     States, the advertising industry, and other media to eliminate alcohol ads that use
     lifestyle appeals, sexual appeals, sports figures, and risky activities?




                                           22 

                     APPENDIX                  A

                CASE STUDY      ADS AND RESPONSES


This appendix contains examples of the five ads from the case study, and 

responses from interest groups, BATF, the alcohol industry 

organizations, and the national networks. 


We obtained the storyboards duplicated here from Radio TV Reports. 

The print ad appeared in a June 1991 publication. 





                                  A-l
                      ST. IDES MALT         LIQUOR       -- ICE CUBE
                                RESPOhTDENT         COMMIENTS


Interest
croups:          Interest groups point out the use of a rap celebrity:

                 Ice Cube, a rap artist and movie star, uses the language and music of
                 inner-city youth.

             b   St. Ides promotes heavy consumption     with 40-ounce bottles.

             t   Ice Cube models public drinking, which is illegal in many urban areas.

BATF.-           The BATF refused to comment on the ad due to a pending
                 investigation.

DISCUS:          Refused to comment.

Beer
Imtitute:        Refused to comment.

Wm
Institute:       Refused to comment.

Century
Cod              Refused to comment.

Networks:        The networks might consider the use of a rapper as youth appeal. CBS
                 has turned down one ad with a rap group because the members
                 appeared young, yet rap music in general is not prohibited.  NBC
                 standards do not allow making appeals to youth or referring to the
                 strength of the beverage. NBC also considers “the specific racial
                 association to offend general taste and propriety.”




                                              A-3
                    BUDWEISER          -- BUDMAN        4TH OF JULY
                                RESPONDENT         COMMENTS


Interest
Group-           Interest groups decry Budweiser’s   use of a superhero:

                 As a superhero, Budman embodies strength, courage, and manhood,
                 which capitalize on youths’ sense of invulnerability.

             c   The contest encourages consumption.     If you buy more of the product,
                 you increase the likelihood of winning.

             b   The bright comic book colors attract children’s attention.

                 The context is a treasure hunt, a children’s game.

BAlF.-           The BATF finds the ad in compliance. As long as the ad contains
                 information about the responsible advertiser and class of product and
                 portrays a true reproduction of an approved label, the ad is in
                 compliance with BATF regulations.

DISCUS:          Refused to comment.

Beer
Institute:       Refused to comment.

Wme
Institute:       Refused to comment.

Century
coluld-          Refused to comment.

Netwods:         Refused to comment.




                                             A-5
                  MILLER      GENUINE       DRAFT       -- RUSTY     WALLACE
                                   RESPONDENT       COMMENTS


Interest
Groups:             Interest groups warn that the ad links drinking with hazardous driving:

             b	     This commercial mixes drinking, driving, and the high-risk setting of
                    racing through town on wet streets.

             t	     Rusty Wallace, a racing celebrity, has been noticed by everyone in town
                    depicting his high status and use as a role model.

BAlF.-	             The BATF is concerned only about the class of the product, and this ad
                    does not appear to state the class of the product as regulations require.

DISCUS:             Refused to comment. 


Beer 

Imtitule:           Refused to comment. 


Wm 

Institute:        ’ Refused to comment. 


Century 

CounciL-            Refused to comment. 



Networks: 	         Two networks are concerned with the use of race car drivers in alcohol
                    ads. While NBC does not allow active athletes or the association of
                    drinking and driving in alcohol ads, they do not consider race car drivers
                    to be athletes and find it acceptable for a company to tout its
                    sponsorship of a race car. Although CBS forbids ads that intersperse
                    actual race footage with product shots, they aired this ad in 1990.




                                                A-7 

                                MALIBU       -- DUNCAN
                               RESPONDENT         COMMENTS


Interest
Groups:         Interest groups criticize the use of a cartoon and outlandish humor:

                The cartoon reflects the popular “Far Side (Gary Larson) type humor
                and drawing.”

            t   The characters are at the beach surfing and windsurfing,   two high risk
                activities that have a youthful appeal.

                The slogan that the taste is “slightly off the map” appeals to notions of
                independence and rebellion among youth.

BATF.-          The BATF finds the ad in compliance.

DISCUS:         DISCUS finds the ad consistent with its standards. The DISCUS Code
                Review Board notes the characters in the ad do not appear to be
                underage. It considers surfing and windsurfing to be sports enjoyed by
                persons of all ages and points out that the average age of a Nobel prize
                winner for the last 30 years is 59 years.

Beer
hstitute:       Refused to comment.

Wm
Ikdu.te:        Refused to comment.

Century
Counc~          Refused to comment.


Nehvorkx        NBC considers animation or cartoons in ads to have youthful appeal and
                believes this ad has insufficient disclosure that Malibu is an alcoholic
                beverage.




                                            A-9
                            COORS        LIGHT       -- JOGGING      MAN
                                    RESPONDENT            COMMENTS


Interest
Groups:            Interest groups take issue with the sexual images and beach scenes:

             .    The ad presents women in an overly sexual and demeaning way.

             .    The language of the ad tells viewers that drinking is right anywhere,
                  anytime.

                  The setting of the ad at the beach is inappropriate since
                  “30 to 50 percent of drownings are alcohol-related.“23

BATF:             The BATF finds the ad in compliance as long as the ad contains
                  information about the responsible advertiser and class of product and
                  portrays a true reproduction of an approved label.

DISCUS:           Refused to comment.

Beer
Institute:        Refused to comment.

Coors:            Coors maintains the ad is in compliance with regulations    and industry
                  standards.
 wine
Institute:        Refused to comment.

Century
Counc~            Refused to comment.

Networkx          CBS considers hazardous activities to include running in the surf or
                  swimming with alcohol. CBS will not allow models standing in the water
                  with alcohol.




    “Source:     Marin Institute interview held July 30, 1991.


                                                   A-11
                                APPENDIX                   B

                         RESPONDENTS        FOR THE CASE STUDY


Federal Agencies                                   Networkr 


Bureau of Alcohol Tobacco and                      ABC Network 

  Firearms (BATF)                                  CBS Network 

Federal Trade Commission (FTC)                     NBC Network 

Food and Drug Administration  (FDA)

                                                   Interest Groups 

Alcohol Industry Organizations 

                                                   Advocacy Institute 

Beer Institute 
                                   Center for Science in the Public 

Century Council 
                                     Interest (CSPI)
Distilled Spirits Council of the United 
          Dr. Jean Kilbourne
   States (DISCUS)                                 Marin Institute
National Wine Coalition                            National Council on Alcoholism and
Wine Institute                                        Drug Dependence
                                                   National Council for Drug-Free
                                                      Schools
Advertking Association                             National Families in Action
                                                   National Parent Teacher Association
American Association      of Advertising           Prevention Research Center
  Agencies (AAAA)                                  Dr. Lawrence Wallack




                                             B-l
